FAA NEEDS TO REEVALUATE STARS
  COSTS AND CONSIDER OTHER
        ALTERNATIVES

     Federal Aviation Administration

      Report Number: AV-2003-058

     Date Issued: September 9, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Needs to Reevaluate STARS                       Date:    September 9, 2003
           Costs and Consider Other Alternatives
           AV-2003-058

  From:    Alexis M. Stefani                                        Reply to
                                                                    Attn. of:   JA-10
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           We are providing you with the results of our audit of the Federal Aviation
           Administration’s (FAA) strategy for terminal automation modernization. Our
           objective was to determine if FAA’s terminal strategy is reasonable and cost-
           effective. FAA is modernizing the terminal air traffic control environment by
           replacing aging automation and display systems at the Nation’s terminal air traffic
           control facilities. Modernizing the terminal automation environment will provide
           the necessary platform for a range of future capacity-enhancing technologies, such
           as new automated controller tools.

           In 1996, FAA selected the Standard Terminal Automation Replacement System
           (STARS) as the centerpiece of its terminal automation modernization strategy (the
           terminal strategy). STARS is not the same program that was planned 8 years ago,
           and the cost estimates and benefits that support the initial acquisition strategy are
           no longer valid. STARS acquisition cost estimates have nearly doubled from
           $940 million to $1.69 billion, and FAA has delayed completing the deployment of
           STARS by 7 years. Over the past 5 years, due to delays in the STARS program,
           FAA deployed Common Automated Radar Terminal System (Common ARTS)
           hardware and software to 141 terminal facilities, or over 75 percent of the facilities
           where FAA intends to deploy STARS.

           FAA’s next step is to ensure that the Agency moves forward with a cost-effective
           and affordable terminal modernization strategy. There is little room for further
           cost growth and schedule slips with large acquisitions such as STARS. According
           to FAA’s draft strategic plan, Flight Plan 2004-2008, the Agency must control
           program costs, refocus investment priorities on programs that perform, and make
                                                                                  2


management decisions based on sound business principles. These are fundamental
management principles that should apply to all acquisitions, including STARS.

On August 21, 2003, FAA provided comments to our July 28, 2003 draft report.
FAA concurred with three of the recommendations in our report. However, FAA
did not comment on our recommendation to put at least $221 million to better use
nor did the Agency state that it would select the most cost-effective alternative to
complete terminal modernization.        In our opinion, by implementing our
recommendation, FAA has a significant opportunity to cost-effectively complete
the terminal modernization and save several hundred million dollars in STARS
acquisition program costs. We have requested that FAA clarify whether it concurs
with our recommendation and our estimate of funds that could be put to better use.

OBJECTIVE AND SCOPE
Our objective was to determine if FAA’s terminal strategy is reasonable and cost-
effective. We evaluated FAA’s cost and schedule estimates for completing its
terminal strategy; reviewed costs incurred to date for STARS and FAA’s other
terminal modernization program, Common ARTS; and analyzed alternatives to
meet terminal modernization needs. We interviewed key FAA and contractor
officials responsible for managing FAA’s terminal modernization programs. On
July 28, 2003, we provided a draft of this report to FAA for comment and have
incorporated the Agency’s comments where appropriate. We performed our work
from December 2002 through July 2003 in accordance with Government Auditing
Standards as prescribed by the Comptroller General of the United States.
Exhibit A provides a detailed description of our audit scope and methodology.


BACKGROUND AND PRIOR AUDIT COVERAGE
Beginning in 1996, FAA’s strategy was to replace aging 1970s era automation
systems and displays with STARS at every terminal location in the National
Airspace System. In September 1996, FAA awarded a contract to Raytheon
Systems Company to develop and deploy STARS. At that time, FAA established
an acquisition cost baseline for STARS of $940 million for system development,
procurement, and installation. FAA planned a completion date of 2005 for
188 systems. FAA also estimated the total cost of STARS over the system’s
anticipated life span (i.e., the life-cycle cost), including acquisition, technical
refresh of hardware and software, and operations costs, would be about
$2.9 billion.

FAA’s original procurement strategy was to use commercially available hardware
and software for STARS. In 1999, after finding significant human factors
                                                                                                                3


problems, FAA revised its strategy to a large-scale, multi-year software
development effort for STARS while successfully implementing an interim
program, Common ARTS, to satisfy immediate modernization needs. To execute
the revised strategy, program officials fragmented the development of STARS into
seven separate software configurations, with each configuration having its own set
of milestones for development and testing. Program officials projected that this
redesign would add almost $500 million to development costs and 3 years to the
schedule. In 1999, program officials proposed a new STARS acquisition cost
baseline of $1.4 billion with a new completion date of 2008. They also raised the
STARS life-cycle cost estimate to about $4.2 billion.

In March and July 2001, due to concerns that STARS cost estimates were still
growing, we recommended that FAA quantify all costs associated with delivery,
installation, and testing of STARS, and evaluate if additional Common ARTS with
color displays would be needed to support FAA’s terminal automation needs.1
Further, we recommended that this analysis include an independent assessment by
an organization that would not have a vested interest in the outcome. FAA did not
implement our recommendations in 2001, but is now in the process of quantifying
STARS costs and having them independently assessed.

In March 2002, faced with further cost growth and delays, program officials
increased the STARS cost estimate to $1.69 billion. Program officials also raised
the life-cycle cost estimate to about $6.1 billion. Currently, FAA plans to deploy
STARS at all terminal facilities, and the program office is revising cost estimates
to implement this strategy. Thus far, FAA has spent approximately $1.1 billion for
STARS and estimates that the last system will become operational in 2012.


RESULTS IN BRIEF
Having commissioned STARS at Philadelphia, FAA is at an important
crossroads—the Agency must decide the most cost-effective and affordable way to
complete terminal modernization. In the near future, STARS program officials
intend to ask FAA’s senior decisionmakers2 to approve a new acquisition cost
baseline of $1.69 billion. However, before any new cost baseline is approved,
FAA needs to reevaluate cost estimates and consider other alternatives to
deploying STARS to all terminal facilities.



1
    Efforts to Develop and Deploy the Standard Terminal Automation Replacement System, AV-2001-048, March 30,
    2001; Status Report on the Standard Terminal Automation Replacement System, AV-2001-067, July 3, 2001.
2
    FAA’s senior decisionmaking body for its investments is the Joint Resource Council. The Joint Resource Council
    makes corporate-level resource and investment decisions, and approves acquisition program baselines.
                                                                                 4


STARS acquisition cost estimates have nearly doubled from $940 million to
$1.69 billion since 1996, and the vast majority of systems have not yet been
procured and deployed. To complete the STARS deployment within the cost
baseline of $1.69 billion, the program office is counting on future cost “savings”
of $281 million that are not attainable. For instance, program officials are
counting on generating more than half of these “savings” by shifting costs from the
Facilities and Equipment budget to the Operations budget. Shifting these costs to
the Operations budget is not considered cost “savings.”

Further, the STARS program office will not have credible cost estimates until
program officials improve the process to manage the contract and obtain
independent assessments of life-cycle costs currently underway. Although the
STARS program office has taken some steps to improve contract management, the
program office has not implemented an effective process to manage contract costs
or determined what it will cost to add needed upgrades to STARS.

In addition to having incomplete cost data, program officials are planning to
request the new acquisition cost baseline without considering alternatives that
could result in significant savings, such as keeping Common ARTS at some
locations. Before FAA senior decisionmakers approve a new baseline, STARS
program officials need to:

   • Complete Sufficient Analysis to Support Any Projected Program Savings.
     While we support the program’s efforts to avoid further cost growth,
     STARS program officials are premature in counting $281 million in
     program “savings.”       For example, program officials plan to save
     $35 million by reducing telecommunications costs at some terminal
     facilities. However, a technical feasibility study to determine if this can be
     safely done will not be completed until October 2003. Also, more than half
     of the projected “savings,” $147 million, is from transferring some
     Facilities and Equipment costs for sustainment, such as fixing and testing
     software, to the Operations budget.

   • Develop and Implement an Effective Process to Manage Contract Costs.
     Last year, an FAA internal review found that contract management had not
     been a priority to the STARS program office, and the program lacked an
     effective contract management process. Since then, the program office has
     taken several steps to improve contract management. For instance, program
     officials are now requesting audits of proposed changes to the contract.
     While this may ensure that future contract costs are reasonable, more needs
     to be done. Since FAA awarded the STARS contract 7 years ago, the
     program office has never requested an independent audit of the billed costs
     on the prime contract. Without these audits, FAA has no assurance of the
                                                                                                               5


          integrity of contractor billed costs—which totaled $688 million as of
          May 2003. Moreover, program officials are not reconciling differences
          between the contractor’s billed costs and FAA’s obligation and expenditure
          reports. Our analysis documented a $41 million discrepancy between the
          billed contract costs and the obligation and expenditure report. Program
          officials have not reconciled and cannot explain this difference. Without
          assurance that the contractor’s billed costs or FAA’s expenditure reports are
          accurate, the program office cannot provide credible estimates of future
          contract costs.

      • Determine What Capabilities Need to Be Added to STARS and at What
        Cost. While FAA has commissioned STARS at Philadelphia, the system is
        not ready for deployment to FAA’s largest and most complex terminal sites,
        such as Denver and Chicago, because the existing system has capabilities
        that do not exist in STARS. To determine what additional development still
        needs to be done, the program office conducted a “functionality gap
        analysis” in April 2003 that compared STARS to the existing system,
        Common ARTS. From this analysis, the program office identified over
        90 functions that already exist in Common ARTS that are not in STARS.
        According to program officials, up to half of these functions can be easily
        resolved. However, other capabilities are more complex and costly. For
        example, FAA needs to add “radar gateway” to STARS. In Common
        ARTS, if the entire computer system fails, radar gateway allows Common
        ARTS to continue to display radar data to the air traffic controllers. The
        program office needs to finalize the “functionality gap” analysis and
        develop cost estimates and schedule milestones to add these features in
        STARS.

      • Consider Reasonable Alternatives to Deploying STARS at All Locations.
        STARS program officials are planning to request a new acquisition cost
        baseline without considering reasonable and cost-effective alternatives,
        such as retaining Common ARTS at some locations. FAA officials
        maintain that STARS has unique capabilities that do not exist in Common
        ARTS. However, we have not seen sufficient evidence to justify FAA’s
        conclusion that the capabilities of STARS are far superior to the capabilities
        of Common ARTS, and both systems have been certified for use in the
        National Airspace System. In fact, in December 2002, FAA deployed
        Common ARTS to its new Potomac facility, with all new hardware,
        software, and color displays.3 Over the past 5 years, FAA has deployed
        Common ARTS hardware and software to 141 terminal facilities, including
3
    Potomac incorporated air traffic control from five airports, including Washington Dulles and Reagan National,
    making it FAA’s third busiest terminal site.
                                                                                  6


      10 of the largest sites, at a cost of $239 million. These facilities represent
      over 75 percent of the locations where FAA intends to deploy STARS. At
      the 10 largest FAA facilities that use Common ARTS, air traffic controllers
      supported more than 14 million flight operations last year.

      STARS is not the same program that was planned 8 years ago, and the cost
      estimates and benefits that supported the initial acquisition strategy are no
      longer valid. In 1999, FAA concluded that the benefits of investing in
      STARS had declined to the point where it would break even when
      compared with an investment in Common ARTS. Since then, FAA’s life-
      cycle cost estimates for STARS have increased by nearly 50 percent, and
      deploying STARS to all sites may no longer be cost-effective. A reasonable
      alternative that FAA is not considering is to limit STARS deployments to
      73 sites, while retaining Common ARTS at the remaining locations. We
      found this alternative could save FAA at least $221 million in acquisition
      costs. Before FAA makes any additional decisions about STARS
      procurements, program officials should provide FAA senior decisionmakers
      with updated cost estimates and benefits analyses for all reasonable
      alternatives to full STARS deployment.


RECOMMENDATIONS
At this time, FAA must make a sound business decision on how to move forward
with its terminal strategy. Before procuring any additional terminal systems to
complete terminal modernization, we are recommending that FAA:

   • Develop credible cost estimates and updated benefits analyses for all
     reasonable alternatives.

   • Select the most cost-effective and affordable strategy to complete terminal
     modernization that would put at least $221 million to better use by
     augmenting STARS deployments with Common ARTS.

   • Reconcile differences between STARS prime contractor billings and FAA’s
     obligations and expenditures reports.

   • Obtain a cost incurred audit for the STARS contract from the Defense
     Contract Audit Agency.
                                                                                 7


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On August 21, 2003, FAA provided comments (see Appendix) to our July 28,
2003 draft report. FAA concurred with three recommendations. With regard to
our first recommendation, FAA agreed to develop credible cost estimates and
updated benefits analyses for all reasonable alternatives to complete the terminal
modernization program. FAA intends to implement this recommendation by the
end of September 2003.

With respect to our second recommendation, FAA did not state whether the
Agency will select the most cost-effective strategy, nor did it comment on our
estimated savings. FAA has a significant opportunity to cost-effectively complete
the terminal modernization and save several hundred million dollars in acquisition
program costs. Further, we believe that our estimate of $221 million that could be
put to better use is conservative and could be substantially higher if FAA does not
achieve its projected $281 million in “savings.” We consider this recommendation
unresolved and request that FAA clarify whether it concurs with our
recommendation and our estimate of funds that could be put to better use.

In response to our third recommendation, FAA agreed to reconcile differences
between the STARS prime contractor billings and FAA’s accounting system.
FAA plans to complete this action by December 31, 2003. Concerning our last
recommendation, FAA agreed to obtain a cost incurred audit for the STARS
contract from the Defense Contract Audit Agency. We request that FAA provide
an estimated completion date for implementing this recommendation.
                                                                                  8




FINDING AND RECOMMENDATIONS
In June 2003, after more than 6 years of development and a near-doubling of
acquisition costs, FAA commissioned the first STARS site at Philadelphia, but the
vast majority of systems still remain to be procured and deployed. FAA’s next
step is to ensure that the Agency moves forward with a cost-effective and
affordable deployment strategy.

In the near future, STARS program officials plan to meet with FAA’s senior
decisionmakers to request a revised acquisition cost baseline—this time for
$1.69 billion. Their latest cost estimate represents an 80 percent increase over the
initial estimated acquisition cost of $940 million for system development,
procurement, and installation. In 2002, the program office also estimated the total
cost of STARS over the system’s anticipated life-cycle, including acquisition,
technical refresh of both hardware and software, and operations costs, would be
$6.1 billion. In 1996, the life-cycle estimate was about $2.9 billion. We are
concerned that FAA senior decisionmakers will not have complete and accurate
cost data to make a sound business decision.

We also found the program office has not implemented an effective process to
manage contract costs and has not determined what it will cost to add needed
capabilities to STARS. In addition to having incomplete cost data to move
forward, program officials are planning to request the new cost baseline without
considering alternatives that could result in significant savings, such as keeping
Common ARTS at some locations. Before FAA senior decisionmakers approve a
new baseline, STARS program officials need to:

   • Complete sufficient analysis to support any projected program savings that
     have been factored in to the new estimate;

   • Develop and implement an effective process to manage contract costs;

   • Determine what capabilities need to be added to STARS, and at what cost;
     and

   • Consider and develop cost estimates for reasonable alternatives to
     deploying STARS at all locations.
                                                                                        9


Program Officials Are Prematurely Crediting $281 Million in
Estimated “Savings” to the STARS Program
To deploy STARS at an acquisition baseline cost of $1.69 billion, the program
office is counting on future cost “savings” of $281 million that are not attainable,
but program officials have deducted this amount from the STARS cost estimate of
$1.97 billion. While we support the program’s efforts to avoid further cost growth
on STARS, program officials are premature in counting these “savings” because:

   • Program officials have not completed sufficient analysis to support the
     forecasted future “savings,” and

   • More than half the “savings” would be achieved by transferring costs from
     FAA’s Facilities and Equipment budget to the Operations budget.

Further, it is premature to count on any savings until program officials determine
that the proposed actions are feasible. For example, program officials plan to save
$35 million by reducing telecommunications costs at some terminal facilities. We
found that a technical feasibility study to determine if this can be safely done will
not be completed until October 2003. We also found that the program office’s
documentation did not support the planned telecommunications “savings.” The
program office’s data only identify $7 million that could be legitimately deducted
from the Facilities and Equipment budget. The remaining telecommunications
“savings,” if feasible, come from reducing telecommunications operations costs,
which are not funded from the Facilities and Equipment budget. See Table 1 for a
summary of the program’s projected “savings.”


     Table 1. “Savings” Projected by STARS Program Officials

                      Forecast Efficiencies                     “Savings” in Millions

Developing Software In-House                                            $32
Freezing Common ARTS Improvements                                       $20
Reducing Telecommunications Costs                                       $35
Testing STARS In-House                                                   $5
Production, Engineering and Adaptation Efficiencies                     $42
Transferring Facilities and Equipment Costs to the Operations          $147
Budget
TOTAL                                                                  $281
                                                                                 10


Also, more than half of the projected “savings,” $147 million, is from transferring
some Facilities and Equipment costs for sustainment, such as fixing and testing
software, to the Operations budget. Shifting costs to the Operations budget should
not be called cost “savings.” In July 2003, we testified that FAA’s Operations
budget is already overburdened and FAA needs to control its spiraling operations
cost. At a time when the Operations budget is already stretched, FAA will have a
difficult time absorbing $147 million in additional modernization costs in the
Operations budget.


Program Officials Need to Develop and Implement an Effective
Process to Manage Contract Costs
Before program officials can produce credible contract cost estimates, they must
improve contract oversight and evaluate the accuracy of historical costs. Last year,
the contracting officer issued a stop-work order on the STARS contract when
anticipated contract spending became unsustainable.           Subsequently, FAA
conducted an internal assessment of the STARS program and concluded that
Government cost estimates for STARS have been unrealistically low or were not
prepared. Also, the analysis concluded that:

   • Contract management had not been a priority, and

   • The program did not have an effective process in place to manage the
     contract.

In December 2002, after we briefed FAA management on our concerns about the
lack of STARS contract oversight, the Agency conducted a follow-up assessment
to review the program’s business processes. The assessment team recommended
that program officials:

   • Develop a process to define, record, and track acquisition cost, schedule
     and technical baselines.

   • Establish a formal program review process.

   • Fill critical positions, specifically the business financial manager,
     contracting officer’s technical representative, and engineering positions.

   • Restructure the STARS contract and consider a fixed-price type of financial
     arrangement.

   • Request contract audits of all future proposals.
                                                                                                                      11


These are basic management practices that should be implemented to manage any
acquisition program. Since February 2003, the program office has taken several
steps to improve STARS contract management. For example, program officials
are now requesting audits of proposed changes to the contract, which should
ensure that future contract costs are reasonable. FAA has also appointed a full-
time contracting officer’s technical representative to oversee activities at the
contractor’s facility.    In our opinion, implementation of these internal
recommendations will improve the business practices of the STARS program, but
more work needs to be done.

We identified two issues concerning the accuracy of contract cost data that need to
be addressed. First, since FAA awarded the prime contract 7 years ago, the
program office has never requested an independent audit of the actual costs
incurred, which total $688 million. Without these audits, program officials have
no assurance that historical contractor costs are reasonable, applicable to the
contract, and allowable by regulation and standards.

Second, the program office has not reconciled STARS expenditures to Raytheon’s
billings. Our analysis documented a $41 million discrepancy between the billed
contract costs and an internal expenditure report. We compared the contractor’s
cumulative billings through May 2003, to FAA’s obligations and expenditures
report. While Raytheon has billed the Government for $688 million, FAA’s latest
report showed that only $647 million had been spent. Management needs
complete, current, and accurate information to make informed decisions and avoid
serious problems, such as improper payments to the contractor. Without assurance
that the contractor’s billed costs or FAA’s expenditure reports are accurate, the
program office cannot provide credible estimates of future contract costs.

In an effort to contain contract costs, STARS program officials are considering a
“cost-reimbursable”4 structure to price future production options, although the
assessment team recommended a fixed-price type of arrangement. If a cost-
reimbursable contract is chosen, the program office must use the Defense Contract
Audit Agency to review the reasonableness of contract costs and implement better
management practices through the life of the STARS contract. As we reported in
May 2002, use of cost-reimbursable contracts is more risky for FAA because
contractors generally have little incentive to control costs.5 Contract negotiations
are not expected to be completed until September 2003.



4
    Typically, cost-reimbursable means that the contractor is awarded an additional fee on top of all costs incurred. This
    contract type contrasts with a fixed-price type vehicle by which the contractor is paid a predetermined amount for
    each item and assumes the risk of any future cost increase.
5
    See Oversight of Cost-Reimbursable Contracts, Report Number FI-2002-092, May 8, 2002.
                                                                                                          12


Independent Cost Assessments for STARS Are Not Complete
Although FAA has two independent assessments of the program’s cost estimates
underway, neither review is complete. As required by FAA policy, the Agency’s
investment analysis organization is reviewing the validity of STARS cost
estimates. This analysis should be completed before the program office presents
its request for rebaselining to senior decisionmakers. As of July 9, 2003, the
investment analysis organization had received only draft material from the STARS
program office. Until they receive final cost and benefit estimates, they will be
unable to complete a thorough evaluation of the STARS revised cost baseline.

In April 2003, FAA commissioned the MITRE Corporation to review STARS
program office cost estimates.6 According to a MITRE official, the scope of this
review is limited to formulating a “best judgment” that the program’s cost and
schedule estimates will be met and quantifying the amount of risk in the estimates.
The review will not involve an independent cost analysis of the program.
MITRE’s review is expected to be completed in the near future. Without the
results of these cost assessments, FAA would be premature in making further
decisions on its terminal strategy.


Program Officials Have Not Determined What Capabilities Need
to Be Added to STARS and at What Cost
FAA has historically underestimated the development costs for STARS. Since
1996, Congress has provided $1.16 billion or over 95 percent of the funds FAA
requested for STARS (see Exhibit B). However, most of this funding was spent
on developing STARS, not delivering new systems. According to FAA’s STARS
budget requests, the Agency procured only 21 percent of the systems it planned to
buy through 2003.

In our opinion, FAA’s problems are largely the result of poor cost estimating. In
September 2001, FAA testified before the Congress that STARS development was
complete.7 Nevertheless, over the past 2 fiscal years, FAA has spent more than
$170 million on STARS development, including a significant amount of work to
correct problems found during operational testing of the system now
commissioned in Philadelphia. In our opinion, the cost of developing STARS will
continue to increase as the program office and Raytheon add enhancements to
STARS that are already in Common ARTS. FAA has been operating Common


6
    MITRE is a federally funded research and development center under annual contract to FAA and other Federal
    agencies to conduct high level analyses.
7
    FAA testimony before the House Committee on Transportation and Infrastructure, Subcommittee on Aviation,
    September 13, 2001.
                                                                               13


ARTS in the National Airspace System for over 5 years, and the system has been
steadily enhanced to respond to new requirements from FAA’s users.

Although FAA has commissioned STARS at Philadelphia, STARS is still not
ready for deployment at FAA’s largest sites, such as Denver and Chicago. In
April 2003, the STARS program office conducted a “functionality gap analysis”
comparing the capabilities of STARS and Common ARTS. From the analysis, the
program office identified at least 50 functions that need to be developed for
STARS if it is to be comparable to the Common ARTS in use. The number of new
STARS functions may exceed 90. According to program officials, up to half of
these functions can be easily resolved. An example of an important function that
STARS needs to develop is “radar gateway.” In Common ARTS, if the entire
computer system fails, radar gateway allows Common ARTS to continue to display
radar data to the air traffic controllers. The program office needs to determine
which capabilities must be added to STARS and develop cost estimates to add
these enhancements.

FAA officials maintain that STARS has unique capabilities that do not exist in
Common ARTS. We have not seen sufficient evidence to justify FAA’s
conclusion that the capabilities of STARS are far superior to the capabilities of
Common ARTS, and both systems have been certified for use in the National
Airspace System. For instance, although program officials cite enhanced system
security as a benefit of STARS, FAA’s Information Security Office has
determined that both systems are acceptable and have a moderate risk rating.
Program officials also identify the addition of manual control knobs for the
STARS display as an example of a feature that makes STARS more desirable than
Common ARTS. However, FAA has successfully fielded hundreds of color
displays without manual knobs at six large terminal locations (Atlanta, Dallas,
Potomac, New York, Northern California, and Southern California).


FAA Is Not Considering Reasonable Alternatives to Complete the
Terminal Strategy
STARS program officials are planning to request a new cost baseline without
considering reasonable alternatives to deploying STARS at all terminal facilities.
By considering only STARS, FAA cannot ensure it is selecting the most cost-
effective and affordable way to complete terminal modernization. Common
ARTS, when upgraded with color displays, satisfies the Agency’s terminal
modernization requirements and provides the necessary platform to support future
capacity-enhancing technologies. One of FAA’s largest Common ARTS facilities,
Potomac (in Warrenton, Virginia), just began full operations in December 2002
with all new Common ARTS hardware, software, and color displays. Since FAA
                                                                                                                  14


has invested $11 million for Common ARTS at this new facility, we believe that
FAA needs to justify why it would be cost-effective and beneficial to replace
Common ARTS with STARS.

STARS is not the same program that was planned 8 years ago, and the cost
estimates and benefits that supported the initial acquisition strategy are no longer
valid. In 1999, as required by FAA policy, FAA’s investment analysis
organization compared the life-cycle cost benefits of investing in STARS to the
life-cycle cost benefits of investing in an alternative (Common ARTS).8 FAA’s
investment analysts found that the effect of FAA’s decision to invest in Common
ARTS “severely eroded the cost savings/avoidance once attributed to STARS.”
This means that deploying Common ARTS to replace old systems significantly
reduced the benefits of investing in STARS. FAA’s investment analysts
concluded the benefits of investing in STARS had declined to the point where it
would break even when compared with an investment in Common ARTS.

In 1999, the program office estimated life-cycle costs for STARS would be about
$4.1 billion, and Common ARTS was not yet widely deployed at that time. In
March 2002, the program office estimated STARS life-cycle costs would exceed
$6.1 billion, and deploying STARS to all terminal locations may no longer be cost-
effective. Common ARTS is already deployed at more than 75 percent of FAA’s
terminal facilities. As shown in Table 2, the program office’s latest estimate for
STARS life-cycle costs has increased by more than 100 percent since 1996.


       Table 2. Changes in STARS Life-Cycle Cost Estimates
                         (cost in millions)
                            1996        October 1999        March 2002            Cost         Percent Cost
                           Baseline       Estimate           Estimate            Growth          Increase
                                                                                               (1996-2002)
    Development               $940          $1,403              $1,690            $ 750            80%
    and Production
    Operations and          $1,296          $1,816              $3,057          $1,761             136%
    Maintenance
    Technology                $640           $ 948              $1,359            $ 719            112%
    Refresh
    Total Life-Cycle        $2,876          $4,167              $6,106          $3,230             112%
    Costs
Source: FAA estimates



8
    FAA’s policy requires that updated acquisition cost estimates and benefit analyses be developed whenever a revised
    cost baseline is proposed.
                                                                                                                  15


Without a new benefit analysis using updated cost data comparing the benefit of
acquiring STARS for all terminal locations with the benefit of retaining existing
Common ARTS at some locations, FAA cannot know if its terminal modernization
strategy is cost beneficial.

In March and July 2001, due to concerns that STARS acquisition cost estimates
were still growing, we recommended that FAA quantify all costs associated with
delivery, installation, and testing of STARS, and evaluate if additional Common
ARTS with color displays would be needed to support FAA’s terminal automation
needs. Further, we recommended that this analysis should include an independent
assessment by an organization that would not have a vested interest in the
outcome. FAA did not implement our recommendations in 2001, but is now in the
process of quantifying STARS costs and having them independently assessed.
However, the Agency is not considering if additional Common ARTS are needed.

In March 2002, STARS program officials proposed a revised acquisition cost
baseline but did not update the benefits analysis. FAA senior decisionmakers
directed the program office to obtain an updated benefits analysis before they
would approve a baseline change. Subsequently, FAA’s investment analysis
organization evaluated the economic merits of STARS, comparing the estimated
life-cycle costs of STARS to Common ARTS. Common ARTS is a modern
automation system that should not be confused with ARTS, a 1970s era system.
FAA deployed Common ARTS hardware and software to 141 terminal facilities
over the past 5 years at a cost of $239 million. At the 10 largest facilities using
Common ARTS, air traffic controllers supported more than 14 million flight
operations last year.

FAA’s economic analysis showed that the Agency could save more than
$300 million by limiting STARS to 73 terminal sites and retaining Common ARTS
at about 100 locations. Although the assumptions supporting this analysis need to
be updated due to additional STARS cost growth, these results show that retaining
some Common ARTS sites could be a more cost-effective and beneficial strategy.

To evaluate whether retaining Common ARTS at some sites presents a potentially
beneficial alternative to deploying STARS at all locations, we collected rough
order of magnitude cost estimates from the STARS program office.9 We
compared the program’s current estimate for acquiring STARS for all sites to cost
estimates for two scenarios that involve limiting STARS purchases and retaining
significant numbers of Common ARTS. In our scenarios, we included the cost of
installing color displays at many Common ARTS sites, since they currently have

9
    Our purpose was to determine if a viable alternative to an all-STARS solution exists, not to demonstrate a precise
    dollar amount of savings. We did not validate the accuracy of FAA’s estimates.
                                                                                                           16


aging displays. We used the cost of adding ARTS Color Displays to Common
ARTS where needed because this is a proven solution.10 The program office is
currently studying the feasibility of adding STARS color displays to Common
ARTS.

Specifically, we compared the program office’s plan to deploy STARS to all sites
with the rough cost estimates to deploy STARS to only 73 sites, while retaining
Common ARTS with color displays at the remaining locations. Also, we
compared the program’s cost estimate to only deploy STARS at 47 facilities still
equipped with 1970s-era systems, while retaining Common ARTS with color
displays at the remaining facilities. Table 3 provides a summary of our analysis of
FAA’s estimates.


      Table 3. Cost Estimates to Finish Terminal Modernization for
                      Three Scenarios (in millions)
            Scenarios             Additional        Cost of Color      Total Future        Estimated
                                   STARS            Displays for          Costs             Savings
                                 Development/        Common
                                  Deployment           ARTS
                                     Cost
  Deploy STARS at all                $673          $0               $673            $0
  sites
  Deploy 73 STARS               $268            $184                $452          $221
  and upgrade remaining
  Common ARTS
  Deploy 47 STARS               $189            $216                $405          $268
  and upgrade remaining
  Common ARTS
 Source: Office of Inspector General analysis based on FAA cost estimates as of March 10,
 2003.

Our analysis found that FAA could save from $221 million to $268 million in
reduced STARS development and deployment costs by retaining Common ARTS
at some sites and adding color displays. These scenarios assume that FAA
achieves its proposed $1.69 billion baseline. If the projected “savings” to support
its proposed baseline do not materialize, implementing one of these alternative
scenarios could generate up to $281 million more in savings than those shown in
Table 3.



10
     Common ARTS sites with ARTS color displays are Atlanta, Dallas, Louisville, New York, Northern California,
     Potomac, and Southern California.
                                                                                  17


Before FAA makes any additional decisions about STARS procurement, program
officials should obtain independent cost estimates and benefits analyses for all
reasonable alternatives to full STARS deployment. Further, FAA should select the
most cost-effective and affordable strategy to complete terminal modernization
that would put at least $221 million to better use by augmenting STARS
deployments with Common ARTS at some locations.


RECOMMENDATIONS
At this time, FAA must make a sound business decision on how to move forward
with its terminal strategy. Before procuring any additional terminal systems to
complete terminal modernization, we recommend that FAA:

   1. Develop credible cost estimates and updated benefits analyses for all
      reasonable alternatives.

   2. Select the most cost-effective and affordable strategy to complete terminal
      modernization that would put at least $221 million to better use by
      augmenting STARS deployments with Common ARTS.

   3. Reconcile differences between STARS prime contractor billings and FAA’s
      accounting system.

   4. Obtain a cost incurred audit for the STARS contract from the Defense
      Contract Audit Agency.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On August 21, 2003, FAA provided comments (see Appendix) to our July 28,
2003 draft report. FAA concurred with recommendations 1, 3, and 4, but needs to
clarify its response to recommendation 2.

Regarding recommendation 1, FAA agreed to develop credible cost estimates and
updated benefits analyses for all reasonable alternatives to complete the terminal
modernization. Further, the analyses will be supported by outside cost estimators.
FAA intends to implement this recommendation by the end of September 2003.
FAA’s proposed action is responsive and we consider this recommendation
resolved subject to our follow-up procedures. However, we request that FAA
provide us the results of its analyses of all reasonable alternatives to complete the
terminal modernization program.
                                                                                18


FAA’s response to recommendation 2 needs clarification. The response does not
state whether FAA will select the most cost-effective strategy. Further, FAA
stated that the Agency would not comment on our estimated savings until the
analyses of all reasonable alternatives were complete. FAA has a significant
opportunity to cost-effectively complete the terminal modernization program and
save several hundred million dollars in acquisition program costs. We believe that
our estimate of $221 million that could be put to better use is conservative and
could be substantially higher if FAA does not achieve its $281 million in projected
“savings.” We consider this recommendation unresolved and request that FAA
clarify whether the Agency concurs with our recommendation and comment on our
cost estimate of funds that could be put to better use.

In response to recommendation 3, FAA concurred with our recommendation to
reconcile differences between the STARS prime contractor billings and FAA’s
accounting system. FAA plans to complete this action by December 31, 2003.
FAA’s proposed action is responsive and we consider this recommendation
resolved subject to our follow-up procedures.

Regarding recommendation 4, FAA agreed to obtain a cost incurred audit for the
STARS contract from the Defense Contract Audit Agency. However, FAA did not
provide an estimated completion date for the proposed action. We request that
FAA provide an estimated completion date for implementing this
recommendation.


ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you clarify your response to recommendation 2 and provide a target date for
implementing recommendation 4. We would appreciate receiving your comments
on this report within 30 calendar days. If you do not concur, please provide an
explanation of your position. You may provide alternative courses of action that
you believe would resolve the issues presented in this report.

We appreciate the cooperation and assistance provided by your staff during our
review. If you have any questions concerning this report, please contact me at
(202) 366-1992, or David A. Dobbs, Assistant Inspector General for Aviation
Audits, at (202) 366-0500.

                                        #
                                                                            19




EXHIBIT A. SCOPE AND METHODOLOGY

Our objective was to determine if FAA’s terminal automation modernization
strategy is affordable. To achieve this objective, we reviewed FAA’s budget and
strategy for reasonableness and cost-effectiveness. To do this, we evaluated
FAA’s budget, cost and schedule projections for completing modernization, costs
incurred to date for STARS and Common ARTS, and alternatives to meet terminal
modernization needs. We examined FAA’s prior expenditures for STARS and
Common ARTS, and compared those actual costs to FAA’s earlier cost estimates
for the two systems. We applied the outcome of this evaluation to FAA’s current
projected costs for further terminal modernization to determine if the current
projections are reasonable. Once we understood FAA’s projected costs, we
evaluated terminal modernization options to determine cost-effectiveness.

To perform this review, we obtained billed contract cost data, budget data,
acquisition plans, cost and schedule projections, contractor financial and
performance reports, and other supporting documentation. We interviewed key
FAA and contractor officials responsible for managing the acquisition of STARS
and Common ARTS. We performed this audit at FAA Headquarters in
Washington, D.C., and the FAA Technical Center in Atlantic City, New Jersey.




Exhibit A. Scope and Methodology
                                                                                                  20




EXHIBIT B. STARS FUNDING AND PROCUREMENTS


         Fiscal      Terminal              Actual           STARS          STARS
         Year       Automation          Appropriation      Procured        Procured
                   Budget Request                          (Planned)       (Actual)
         1996          $55                     $49
         1997            $78                   $64              3
         1998           $108                 $105               5
         1999           $210                 $199              25               2
         2000           $195                 $195              51
         2001           $190                 $192              11              12
         2002           $203                 $201              18              18
         2003           $166                 $155              39               0
         Total        $1,206*              $1,160             152           32**
Source: FAA Budget Submissions to Congress
* Variation due to rounding
** Four STARS sites are operational. Eleven sites have the Early Display Configuration that uses STARS
displays with 1970s ARTS computers and software. Seventeen systems are bought, but not installed.



The above table shows that since 1996 Congress has provided about $1.16 billion
for STARS, or more than 95 percent of FAA’s funding requests. Most of the
funds that FAA requested for the procurement of STARS have actually been spent
on unanticipated STARS development. For example, in fiscal year 2003, FAA
reduced its planned STARS deployments from 18 to 3 sites and cut new system
buys from 39 to zero in order to pay for the costs to deploy STARS to
Philadelphia, operational software fixes, and sustainment costs. In total, FAA has
only procured STARS for 32 locations, or 21 percent of the systems it planned to
buy.




Exhibit B. STARS Funding and Procurements
                                21




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                22




Appendix. Management Comments
